No.

IN THE
SUPREME COURT OF THE UNITED STATES

JACOB CHRISTINE

— PETITIONER

(Your Name)
VS.
SUFERINIENDANT SCI ALBION

— RESPONDENT(S)

PROOF OF SERVICE
I,

Jacob Christine
OyA/XC.

WV~

--------- , do swear or declare that on this date,
, 20^L, as required bySupreme Court Rule 29 I have

served the enclosed
and PETITION FOR A WRIT OFCERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days*; to the best of my understanding.
The names and addresses of those served are as follows:
U.S. Supreme Ct., 1st St., N.E.Washington, D.C. 20543
Northampton County DA Office, 669 Washington St, Easton, PA 18042

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 20JLL

(Signature)

